    *                                      NATIONAL SCIENCE FOUNDATION
                                   L   r      4201 WILSON BOULEVARD
                                             ARLINGTON. VIRGINIA 22230




             OFFICE OF




                      -
         INSPECTOR GENERAL




        MEMORAN-DUM

~                                                                         - -   _      ._
        Date:          March 3 1, 1997

        To:            I93 110050

        From:            -- ---   -_
        Via:                                Special Agent-in-Char

        Re:            Resolution of Case


        O n November 12, 1993, we received an allegation that
                                            was deliberately
                                            and other federal agencies without disclosing pending
        duplicative proposals as required. In addition, it was alleged that one of the Principal
        Investigators (PI) listed on some ~ ~ ~ r o ~ owass actually a l s a full-time employee of
        another company and illegally transferring that company's proprietary information-t

        Our investigation determined that, though
        awarded.      We also determined that
                                                      P
        Consequently, we contacted NASA OIG cecial Agen
                                                          had several submissions to NSF, none were
                                                             received several awards from NASA.

        1993, to assist this investigation. NASA OIG conducted-d
                                                                                   on December 28,
                                                                                   on September 17,
        1996, began discussions about this case with the U.S. Attorney's Office (USAO) for the
        Eastern District of Virginia.
                                                                                                     --
        O n April 4, 1997, our office was informed by NASA OIG Special Agent
        that, while their investigation had found forged signatures in-roposao
        mischarging in                   and the use of subcontractors to perform more than 2/3 of the
                                  rojects, the USAO criminal division had declined to take action on
        this case at                     of the USAO's decision not to take action, the fact that
        has never received NSF funding, and Special Agent                         keeping us informe
        NASA OIG's investigation of this case, further use o                investigation resources is not
        warranted at this time. This case is closed.
